DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



              Letter Report: 

  TSA’s Management of Aviation Security 

     Activities at the Jackson-Evers 

         International Airport





  OIG-07-73                      August 2007
                                                                                Office of Inspector General

                                                                                U.S. Department of Homeland Security
                                                                                Washington, DC 20528




                                         August 29, 2007

MEMORANDUM FOR:                      Edmund “Kip” Hawley
                                     Assistant Secretary
                                     Transportation Security Administration


FROM:                                Richard L. Skinner
                                     Inspector General

SUBJECT:                        	    TSA’s Management of Aviation Security Activities at the Jackson-
                                     Evers International Airport

Pursuant to a request from Congressman Bennie G. Thompson, Chairman of the House Committee
on Homeland Security, we are conducting a review of the Transportation Security Administration’s
(TSA) management of aviation security activities at Jackson-Evers International Airport. The
objectives of our review are to determine: (1) whether Transportation Security Officers (TSO) at the
Jackson-Evers International Airport received advanced notice of any covert testing; (2) whether
TSOs report the discovery of firearms and other dangerous prohibited items as required in TSA
policy and directives; and (3) whether existing processes, which authorize certain individuals to fly
while armed, need strengthening.

Our review is currently ongoing, but we have already developed findings concerning aviation
security activities at the Jackson-Evers International Airport. Under most circumstances, we present
findings and recommendations to senior Department of Homeland Security officials based upon
completed fieldwork before finalizing reports. However, we want to provide you with this
information because we expanded the scope of our review from the Chairman’s original request to
include other airports, and the project will take more months to complete. We ask that you treat this
information as provisional in nature, and not conclusive of our findings and recommendations.

To date, we have reviewed TSA policies and procedures regarding covert testing, the reporting of
incidents, and the flying armed program. We interviewed TSA headquarters officials,
Transportation Security Operation Center employees, and Federal Air Marshal Service staff. We
also interviewed federal law enforcement officers (LEOs) from our Office of Investigations, the U.S.
Secret Service, Customs and Border Protection (CBP), CBP’s Office of Field Operations, CBP’s
Office of Border Patrol, Immigration and Customs Enforcement (ICE), ICE’s Office of Detention
and Removal Operations, ICE’s Office of Investigations, and ICE’s Federal Protective Service, as
well as state and local LEOs, to gain a better understanding of LEO experiences in the flying armed

           TSA’s Management of Aviation Security Activities at the Jackson-Evers International Airport 


                                                     Page 1 

program. In addition, we contacted staff at the Federal Law Enforcement Training Center to obtain
information on initial and advanced training provided to LEOs on flying armed. Finally, we
performed a site visit of the Ronald Reagan Washington National Airport in Virginia to obtain an
operational perspective of TSA’s management of aviation security activities. We looked at TSA
screening operations, commercial airline carrier and airport authority and police practices prior to
our fieldwork.

During the week of March 12, 2007, we conducted fieldwork at the Jackson-Evers International
Airport in Mississippi. We performed over 38 interviews with TSA, commercial airline carrier, and
airport authority employees and police. We interviewed all TSA management officials as well as a
cross-section of TSOs.

Covert Testing

We have determined that TSOs at the Jackson-Evers International Airport received advance notice
of covert testing conducted by TSA’s Office of Inspection on February 12, 2004. However, TSA’s
Office of Inspection did not provide the advance notice of covert testing; rather it was TSA
employees at the Jackson-Evers International Airport that provided the advance notice to other TSA
employees at this airport. Our conclusion is based upon statements made by TSOs, or TSA
management employees who communicated to other TSA employees that such testing was to occur.
Statements made ranged from “be on our P’s and Q’s the red-team is in the area,” to the specific
gender and race of the tester, the type of test items used, and the location of test items in checked and
carry-on baggage, or the location of such items on the tester. We could not identify, with absolute
certainty, where the advance information originated from, but this information was communicated to
certain individuals at all levels of TSA personnel at the Jackson-Evers International Airport.

We are assessing TSA’s covert testing program to determine whether the advance notice provided by
TSA employees at Jackson-Evers International Airport was an incident isolated to that airport. In
addition, we will determine whether additional safeguards should be in place to ensure the integrity
of covert testing so that results are accurate and reflect actual operational capability and
effectiveness. We will discuss our findings and recommendations in greater detail in the final report.

Reporting Prohibited Items

We are still conducting fieldwork to determine whether incidents that should be reported to TSA
headquarters, such as the discovery of firearms and other dangerous prohibited items, are reported as
required by TSA policy and directives. At this time, we have not developed specific findings or
formulated recommendations. We will discuss the reporting of prohibited items in the final report.

Law Enforcement Officers Flying Armed

TSA’s Office of Law Enforcement/Federal Air Marshals Service and Office of Security Operations
have responsibility for the Law Enforcement Officers Flying Armed program. There are several
opportunities to enhance and strengthen the flying armed program. For example, at the Jackson-
Evers International Airport we reviewed TSA Armed Law Enforcement Officer Sign-In Logs. A
number of the logs did not contain requested information on the officer’s badge number, the officer’s

           TSA’s Management of Aviation Security Activities at the Jackson-Evers International Airport 


                                                     Page 2 

agency affiliation, the agency address, or flight number. Further, on August 26, 2005, Jackson,
Mississippi’s Mayor flew armed, but the log did not include his badge number as required. Also on
November 1, 2005, when the Mayor flew armed, the log did not contain the required initials of the
airport law enforcement officer who verified the Mayor’s paperwork, credentials, and badge.

In addition, whether it is permissible for a LEO to fly armed must be weighed against the need to do
so in the official conduct of duty. Thus, the reasons for permitting a LEO to fly armed should be
scrutinized beyond merely meeting the applicable criteria of CFR §1544.219, “Carriage of
Accessible Weapons.” For example, when Congress passed the Intelligence Reform and Terrorism
Prevention Act of 2004, the law directed TSA to establish a LEO credentialing system that
incorporates biometric identification technology by April 16, 2005.1 Biometric technology uses
computerized methods to identify a person by their unique physical traits, such as fingerprints or iris
recognition scanning. A biometric identification card would not only ensure that all LEOs flying
armed are bona fide, but also that their agency has approved their need to fly armed through the
issuance of this card.

We are still reviewing documentation and performing program analysis. Our goal is to make
recommendations that are useful for all program partners, TSA, commercial airline carriers, airport
authorities and police, and federal, state, and local LEOs, while maintaining official conduct of duty
requirements, and safe flight operations for officers and the flying public. Our findings and
recommendations will be discussed in greater detail in the final report.

Should you have any questions, please call me, or your staff may contact Carlton I. Mann, Assistant
Inspector General for Inspections, at (202) 254-4100.


cc: 	      Secretary
           Deputy Secretary
           General Counsel
           Chief of Staff
           Deputy Chief of Staff
           Chief Security Officer
           Under Secretary for Management
           Assistant Secretary for Policy
           Director of Operations Coordination
           DHS OIG Liaison
           TSA Audit Liaison




1
    Public Law 108-458, Title IV – Transportation Security, Subtitle B – Aviation Security, Section 4011(a)(6).

                TSA’s Management of Aviation Security Activities at the Jackson-Evers International Airport 


                                                           Page 3 

Appendix A

Major Contributors to the Report



Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security, Office of Inspections

Angela Garvin, Senior Inspector, Department of Homeland Security, Office of Inspections

Ryan Carr, Inspector, Department of Homeland Security, Office of Inspections




             TSA’s Management of Aviation Security Activities at the Jackson-Evers International Airport 


                                                       Page 4 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

   •    Call our Hotline at 1-800-323-8603;
   •    Fax the complaint directly to us at (202) 254-4292;
   •    Email us at DHSOIGHOTLINE@dhs.gov; or
   •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations – Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528

The OIG seeks to protect the identify of each writer and caller.
